         OFFICE OF INSPECTOR GENERAL
CORPORATION FOR NATIONAL AND COMMUNITY SERVICE




               AUDIT OF CORPORATION FOR
            NATIONAL AND COMMUNITY SERVICE
           GRANTS TO THE NATIONAL COUNCIL OF
             CHURCHES OF CHRIST IN THE USA

                 OIG Audit Report Number 02-12
                        March 22,2002




                              Prepared by:

                  Leonard G . Bimbaum and Company, LLP
                           6285 Franconia Road
                          Alexandria, VA 223 10

                         Under Department of State
                OIG Contract # S-OPRAQ-99-D-0020-CNS-09



--   - -




This report was issued to Corporation management on March 22,2002.
                                                                                    CORPORATION
                           Office of Inspector General                              FOR NATIONAL
                 Corporation for National and Community Sewice
                               Audit Report 02-12

     Audit of Corporation for National and Community Service Grants to the
               National Council of Churches of Christ in the USA

Introduction

In September 2000, CNCS OIG engaged the independent accounting firm of Leonard G.
Birnbaum and Company to audit costs claimed by the National Council of Churches of
Christ in the USA under two CNCS grants. The grants funded AmeriCorps programs to
be operated by the Council and provided for education awards to be earned by
AmeriCorps members. Under the budget for Grant No. 94ADNNY028, funding was
provided for the program's operations, including AmeriCorps member support and
administrative costs.

Initiation of audit work followed an OIG investigation that revealed programmatic and
oversight issues for the Education Award Only programs and discrepancies between the
number of AmeriCorps members claimed to have been enrolled by the National Council
of Churches and the Corporation's records. The investigation was closed in May 2000
and the results reported to the Corporation. Since then, the Corporation has worked with
the Council to resolve issues related to AmeriCorps member enrollment, documentation
of their service, and eligibility for education benefits.

As discussed in Leonard G. Birnbaum and Company's report, Appendix A, the firm's
preliminary efforts revealed that the National Council of Churches had obtained audits as
required by OMB Circular A-133, Audits of States, Local Governments, and Non-Profit
Organizations. Although those audits resulted in unqualified opinions on the financial
statements, the audit reports on the Council's internal controls and its compliance with
federal regulations and grant provisions identified a number of material weaknesses as
early as 1996. Many of these conditions directly impacted the Corporation's grants.

The firm also found that the Council's accounting system was inordinately complex and
that the Council's federal financial status reports submitted to the Corporation to account
for costs claimed under the grants could not be reconciled to its accounting records. This
finding was included in the Circular A-133 audit reports, as well as in a 1996 OIG report
on the results of a survey of the Council's compliance with federal accounting systems
requirements.

Leonard G. Birnbaum and Company has concluded that the material weaknesses and
other conditions are impediments that preclude the firm's ability to practicably audit the
grants. Based on our review of their report and its underlying work papers as well as
discussions with CNCS officials and Council representatives, OIG concurs. This decision



                                                                                 Inspector General
                                                                                 1201 New York Avenue, NW
                                                                                 Washington, DC 20525
and the results of our preliminary work were discussed with National Council of
Churches' and CNCS' representatives at an exit conference on January 15,2002.

Although the contracted audit firm was unable to audit Corporation grants awarded to the
National Council of Churches of Christ, OIG recommends that the Corporation continue
its initiative to clarify remaining issues concerning member enrollment, documentation of
services performed, and individual eligibility for educational awards. Since the National
Council of Churches no longer operates any AmeriCorps programs, OIG is not making
any recommendations for additional corrective actions. However, the Corporation should
consider the issues identified in this report in making any future grant award decisions
concerning the National Council of Churches of Christ.
                         LEONARD G . BIRNBAUM                                   AND         C O M P A N Y , LLP
                                                 CERTIFIED PUBLIC ACCOUNTS
                                                          WASHINGTON OFFICE                                  APPENDIX A
                                                         6285 FRANCONIA R O A D
                                                       ALEXANDRIA. VA 2 2 3 1 0 - 2 5 1 0


                                                               (703) 922-7622
                                                            FAX: (703) 922-8256
LESLIE A. LEIPER                                                                                                         WASHINGTON. D C
LEONARD G BIRNBAUM                                                                                                    SUMMIT. N E W JERSEY
DAVID SAKOFS                                                                                                      REDWOOD CITY. CALIFORNIA
C A R O L A SCHNEIDER
DORA M C L A R K E




        Inspector General
        Corporation for National and Community Service

        We were engaged to audit the amounts claimed by the National Council of Churches in Christ
        under Grant Nos. 94ADNNY028 (National Direct AmeriCorps Program) and 97EDNNY062
        (Education Award Only Program), which had periods of performance of June 27, 1994 to
        December 3 1, 2000, and September 1, 1997 to November 30, 2000, respectively. Grant No.
        94ADNNY028 was funded in the amount of $8,362,636; Grant No. 97EDNNY062 was funded
        in the amount of $3,286,555. NCC has drawn down the entire funding under the Education
        Award Only Program and all but $155,045 under the National Direct AmeriCorps Program.




        In 1996, the Office of Inspector General (OIG), Corporation for National and Community
        Service (CNCS) conducted a preliminary survey of NCC's performance of CNCS Grant No.
        94ADNNY028. This survey revealed several weaknesses in the financial management of the
        grant, as follows:

                         Matching share costs were not recorded in the accounting system.

                     a   Participant support matching share reported did not meet the percentage required
                         by the grant.

                     a   The Federal Cash Transaction Report and the Financial Status Report were not
                         reconciled to the general ledger.

         NCC underwent several audits in accordance with the requirements of Office of Management
         and Budget (OMB) Circular A-133, "Audits of States, Local Governments, and Non-Profit
         Organizations." Under these audits, the CNCS AmeriCorps grant was considered to be a major
         program for the years ended December 3 1, 1995 through 1999, the latest year for which an audit




                               M E M B E R S O F T H E AMERICAN INSTITUTE O F CERTIFIED PUBLIC ACCOUNTANTS
                                                                                    APPENDIX A

Inspector General
Corporation for National and Community Service
Page 2

had been completed as of the date of this report. The OMB A-133 audits reported material
weaknesses which relate to the CNCS programs since 1996, including:

              Amounts reported on Financial Status Reports could not be reconciled with
              amounts reflected in NCC's records.

              Controls that prevent and detect incorrect changes or additions to the existing
              chart of accounts were inadequate (balance sheet major account codes were
              combined with revenue and expense sub-account codes or vice versa).

               Disbursements were not properly approved or adequately documented.

               The functional allocation of expenses, including allocation of indirect costs, is not
               adequately supported.

               Delays were noted in the submission of required financial reports to funding
               sources.

               Deficiencies in internal control and compliance with federal government grant
               requirements were noted in the audit reports of the NCC's subrecipients.

               Payments for expenses of subrecipients and overseas offices were not adequately
               documented.

               The matching share required by certain federal award grants was not met.


Scope Limitation

Preliminary effort disclosed that NCC had developed and used an excessively complex set of
account codes for grant accounting, one that presented a balance sheet and a statement of
operations for each grant at, at least, the grant level, together with separate balance sheets and
statements of operations for indirect costs. Costs incurred by NCC, other than subrecipient costs,
were randomly charged against account codes for the Direct AmeriCorps Program and the
Education Award Program without any apparent rationale. This was particularly true with respect
to indirect costs. Subrecipient costs that, for the most part, represented the amount funded by
NCC but not subrecipient match costs, were recorded either (1) in separate account code(s), (2)
included in account codes intended for NCC's own costs, or (3) split between separate account
                                                                                    APPENDIX A

Inspector General
Corporation for National and Community Service
Page 3

codes and NCC's account codes. Despite significant effort, we concluded that the amounts
represented as claimed on Financial Status Reports could not be reconciled with NCC's records.

Over the past two years, NCC underwent a significant restructuring as a result of which staff who
were associated with the ArneriCorps grant programs are no longer available to provide
documentation or otherwise assist in an audit of these programs.

Disclaimer of Opinion

Because we were unable to reconstruct the amounts reported as expenditures incurred under
Grant Nos. 94ADNNY018 and 97EDNNY062 in Financial Status Reports by NCC or apply
other auditing procedures to satisfy ourselves that the reported expenditures are reconcilable with
NCC's records and because the conditions discussed in the two preceding paragraphs make it
impracticable to extend out audit procedures to assess the propriety of costs charged to the CNCS
grants, the scope of our work was not sufficient to enable us to express, and we do not express,
an opinion on the amounts reported as expenditures under these grants in Financial Status
Reports.

Report Use and Distribution

This report is intended for the information and use of the Office of Inspector General,
Corporation for National and Community Service, the management of the Corporation, and
National Council of Churches of Christ. However, this report is a matter of public record and its
distribution is not limited.




                                                        Leonard G. Birnbaum and Company, LLP



Alexandria, Virginia
September 24,2001
